                                                              U.S. Department of Justice


                                                              Federal Bureau of Investigation




For Immediate Release                                         January 8, 2004


                The Federal Bureau of Investigation (FBI), United States Postal Inspection
Service, and the United States Department of Transportation (DOT), Office of Inspector General
are offering a reward of up to $100,000 for information leading to the arrest and conviction of
the individual(s) responsible for introducing a threatening letter addressed to DOT and
containing the poison ricin into a U.S. Postal facility located in Greenville, South Carolina on
October 15, 2003.

               The author(s) of this typewritten letter claimed that he or she was a fleet owner of
a tanker company and demanded that the present laws regarding truck driver hours of service
regulations remain unchanged. On January 4, 2004, significant new federal regulations went into
effect mandating more rest and orienting drivers toward a 24-hour work/rest cycle. A
type-written message on the exterior of the envelope indicated "caution RICIN POISON
Enclosed in sealed container Do not open without proper protection". Inside the envelope was a
small, metal vial which contained ricin, a white, granular, potentially deadly poison.

                The author(s) of this letter claimed to have the ability to make large quantities of
ricin and to use this poison if the new hours of service regulations were not repealed by January
4, 2004. The letter was signed "Fallen Angel".

       Anyone with information concerning the identity of the individual(s) responsible for
authoring this threatening letter is requested to contact the FBI toll free at 1-866-839-6241.




                                                  1
                     The United States Postal Inspection Service,
                         Federal Bureau of Investigation and
                        U.S. DOT Office of Inspector General


 $100,000 REWARD
A reward of up to $100,000 is being offered for information leading to the arrest and conviction of the individual(s)
responsible for introducing a threatening letter addressed to DOT containing the poison ricin discovered at a U.S. Postal
facility in Greenville, SC on October 15, 2003.

The author(s) of this letter claimed to be a fleet owner of a tanker company and demanded that the present laws regarding
hours of service regulations remain unchanged. On January 4, 2004, significant new federal regulations went into effect
mandating more rest and orienting drivers toward a 24-hour work/rest cycle. Inside the envelope was a small, metal vial
which contained ricin.

                                            Typewritten on the exterior of the envelope was the following warning:




                                                           The following is a representation of the language contained
                                                           in the threat letter:

                                                           to the department of transportation: I’m a fleet owner of a
                                                           tanker company.
                                                           I have easy access to castor pulp. If my demand is
                                                           dismissed I’m capable of making Ricin.
                                                           My demand is simple, January 4 2004 starts the new hours
                                                           of service for trucks which include a ridiculous ten hours in
                                                           the sleeper berth. Keep at eight or I will start dumping.
                                                           You have been warned this is the only letter that will be
                                                           sent by me.
                                                                                        Fallen Angel



              Anyone having information, contact the Tip Line 1-866-839-6241

             Reward payment will be made in accordance with conditions of Postal Service Reward Poster 296, dated February 2000.




    Public Health Information regarding ricin can be found at the Center for Disease Control website (www.cdc.gov)
